                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036


                                            Independent Auditors’ Report

Secretary and Inspector General
U.S. Department of Labor:

We have audited the accompanying consolidated balance sheets of the U.S. Department of Labor (DOL) as of
September 30, 2007 and 2006, and the related consolidated statements of net cost, changes in net position, and
custodial activity, and combined statements of budgetary resources for the years then ended; and the statements of
social insurance as of September 30, 2007 and 2006 (hereinafter referred to as “consolidated financial statements”).
The objective of our audits was to express an opinion on the fair presentation of these consolidated financial
statements. In connection with our fiscal year 2007 audit, we also considered the DOL’s internal controls over
financial reporting and performance measures and tested the DOL’s compliance with certain provisions of applicable
laws, regulations, contracts, and grant agreements that could have a direct and material effect on these consolidated
financial statements.

We have also examined DOL’s compliance with section 803a of the Federal Financial Management Improvement
Act of 1996 (FFMIA) as of September 30, 2007.

SUMMARY

As stated in our opinion on the consolidated financial statements, we concluded that the DOL’s consolidated
financial statements as of and for the years ended September 30, 2007 and 2006, are presented fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our opinion on the consolidated financial statements, DOL changed its method of reporting the
reconciliation of budgetary resources obligated to the net cost of operations and its method of reporting the
proprietary activities related to its allocation transfers in fiscal year 2007.

Our consideration of internal control over financial reporting resulted in the following conditions being identified as
significant deficiencies:

      1. Lack of Adequate Controls over Access to Key Financial and Support Systems

      2. Weakness Noted over Payroll Accounting

      3. Weakness Noted over Budgetary Accounting

      4. Lack of Segregation of Duties over Journal Entries

However, none of the significant deficiencies are believed to be material weaknesses.

We noted no deficiencies involving the design of the internal control over the existence and completeness assertions
related to key performance measures.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements
disclosed two instances of Anti-deficiency Act noncompliance that are required to be reported under Government

172     United States Department of Labor    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                             member firm of KPMG International, a Swiss cooperative.
                                                                                          Independent Auditors’ Report




Auditing Standards, issued by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

As stated in our opinion on DOL’s compliance with FFMIA, we concluded that DOL complied, in all material
respects, with the requirements of FFMIA as of September 30, 2007.

The following sections discuss our opinion on the DOL’s consolidated financial statements; our consideration of the
DOL’s internal controls over financial reporting and performance measures; our tests of the DOL’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements; and management’s and our
responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the DOL as of September 30, 2007 and 2006, and
the related consolidated statements of net cost, changes in net position, and custodial activity, and the combined
statements of budgetary resources for the years then ended; and the statement of social insurance as of September 30,
2007 and 2006. The accompanying statements of social insurance as of September 30, 2003 through 2005 were not
audited by us and, accordingly, we do not express an opinion on them.

In our opinion, the consolidated financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of Labor as of September 30, 2007 and 2006, and its net costs, changes in
net position, budgetary resources, and custodial activity for the years then ended, and the financial condition of its
social insurance program as of September 30, 2007 and 2006, in conformity with U.S. generally accepted accounting
principles.

As discussed in Note 1B to the consolidated financial statements, DOL changed its method of reporting the
reconciliation of budgetary resources obligated to the net cost of operations and its method of reporting the
proprietary activities related to its allocation transfers in fiscal year 2007.

The information in the Management’s Discussion and Analysis, Required Supplementary Stewardship Information,
and Required Supplementary Information sections is not a required part of the consolidated financial statements, but
is supplementary information required by U.S. generally accepted accounting principles and OMB Circular No. A-
136, Financial Reporting Requirements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.

The information in the Secretary’s Message, Performance Section, and Appendices are presented for purposes of
additional analysis and are not required as part of the consolidated financial statements. This information has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a control deficiency, or combination of control deficiencies, that adversely affects the DOL’s
ability to initiate, authorize, record, process, or report financial data reliably in accordance with U.S. generally
accepted accounting principles such that there is more than a remote likelihood that a misstatement of the DOL’s

                                                                FY 2007 Performance and Accountability Report      173
Financial Section


consolidated financial statements that is more than inconsequential will not be prevented or detected by the DOL’s
internal control over financial reporting. A material weakness is a significant deficiency, or combination of
significant deficiencies, that results in more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected by the DOL’s internal control.

In our fiscal year 2007 audit, we consider the deficiencies described in Exhibit I to be significant deficiencies in
internal control over financial reporting. However, we believe that none of the significant deficiencies presented in
Exhibit I are material weaknesses.

We noted certain additional matters that we will report to management of DOL in a separate letter.

INTERNAL CONTROL OVER PERFORMANCE MEASURES

Our tests of internal control over performance measures, as described in the Responsibilities section of this report,
disclosed no deficiencies involving the design of the internal control over the existence and completeness assertions
related to key performance measures.

COMPLIANCE AND OTHER MATTERS

Our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements, as described in
the Responsibilities section of this report, exclusive of those referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA), disclosed two instances of Anti-deficiency Act noncompliance that are required
to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04, and are described in
Exhibit II.

The results of our tests of compliance as described in the Responsibilities section of this report, exclusive of those
referred to in FFMIA, disclosed no other instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 07-04.

Other Matter. DOL is currently reviewing two incidents regarding potential violations of the Anti-deficiency Act.
As of the date of this report, no final noncompliance determination has been made for either of the two incidents.

We noted certain additional matters that we will report to management of DOL in a separate letter.

OPINION ON COMPLIANCE WITH FFMIA

DOL represented that, in accordance with the provisions and requirements of FFMIA, the Secretary of Labor
determined that the U.S. Department of Labor’s financial management systems are in substantial compliance with
FFMIA.

We have examined the U.S. Department of Labor’s compliance with section 803a of the Federal Financial
Management Improvement Act of 1996 as of September 30, 2007. Under section 803a of FFMIA, DOL’s financial
management systems are required to substantially comply with (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. We used OMB’s Revised Implementation Guidance for the Federal Financial
Management Improvement Act, dated January 4, 2001, to determine compliance.

In our opinion, the U.S. Department of Labor complied, in all material respects, with the aforementioned
requirements as of September 30, 2007.




174   United States Department of Labor
                                                                                           Independent Auditors’ Report




RESPONSIBILITIES

Management’s Responsibilities. The United States Code Title 31 Section 3515 and 9106 require agencies to report
annually to Congress on their financial status and any other information needed to fairly present their financial
position and results of operations. To meet these reporting requirements, the DOL prepares and submits financial
statements in accordance with OMB Circular No. A-136.

Management is responsible for the consolidated financial statements, including:

•   Preparing the consolidated financial statements in conformity with U.S. generally accepted accounting principles;

•   Preparing the Management’s Discussion and Analysis (including the performance measures), Required
    Supplementary Information, and Required Supplementary Stewardship Information;

•   Establishing and maintaining effective internal control; and

•   Complying with laws, regulations, contracts, and grant agreements applicable to the DOL, including FFMIA.

In fulfilling this responsibility, management is required to make estimates and judgments to assess the expected
benefits and related costs of internal control policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2007 and 2006
consolidated financial statements of the DOL based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States; and OMB
Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to
obtain reasonable assurance about whether the consolidated financial statements are free of material misstatement.
An audit includes consideration of internal control over financial reporting as a basis for designing audit procedures
that are appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
DOL’s internal control over financial reporting. Accordingly, we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated financial
    statements;

•   Assessing the accounting principles used and significant estimates made by management; and

•   Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2007 audit, we considered the DOL’s internal control over financial
reporting by obtaining an understanding of the DOL’s internal control, determining whether internal controls had
been placed in operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the consolidated financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in Government Auditing
Standards and OMB Bulletin No. 07-04. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to



                                                                   FY 2007 Performance and Accountability Report   175
Financial Section


express an opinion on the effectiveness of the DOL’s internal control over financial reporting. Accordingly, we do
not express an opinion on the effectiveness of the DOL’s internal control over financial reporting.

As required by OMB Bulletin No. 07-04 in our fiscal year 2007 audit, with respect to internal control related to
performance measures determined by management to be key and reported in the Management’s Discussion and
Analysis and Performance sections, we obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal controls had been placed in operation.
We limited our testing to those controls necessary to report deficiencies in the design of internal control over key
performance measures in accordance with OMB Bulletin 07-04. However, our procedures were not designed to
provide an opinion on internal control over reported performance measures and, accordingly, we do not provide an
opinion thereon.

As part of obtaining reasonable assurance about whether the DOL’s fiscal year 2007 consolidated financial
statements are free of material misstatement, we performed tests of the DOL’s compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a direct and material effect
on the determination of the consolidated financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04, including certain provisions referred to in FFMIA. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, contracts, and grant agreements applicable to the DOL. However, providing an opinion on
compliance with laws, regulations, contracts, and grant agreements was not an objective of our audit and,
accordingly, we do not express such an opinion.

Our responsibility also included expressing an opinion on DOL’s compliance with FFMIA section 803a requirements
as of September 30, 2007, based on our examination. Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General of the
United States and, accordingly, included examining, on a test basis, evidence about DOL’s compliance with the
requirements of FFMIA section 803a and performing such other procedures as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis for our opinion. Our examination does
not provide a legal determination on DOL’s compliance with specified requirements.
______________________________

The DOL’s response to the findings identified in our audit is summarized in Exhibit I. We did not audit the DOL’s
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the DOL’s management, the DOL’s Office of Inspector
General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.




November 9, 2007




176   United States Department of Labor
                                                                                        Independent Auditors’ Report

                                                                                              Significant Deficiencies
                                                                                                              Exhibit I


1. Lack of Adequate Controls over Access to Key Financial and Support Systems

   The Office of Inspector General (OIG) has been reporting access control weaknesses over the U.S. Department of
   Labor’s (DOL) financial systems since fiscal year (FY) 2001 and application access control weaknesses since FY
   2004. In FY 2006, we reported two reportable conditions relating to system access controls over financial
   reporting:

   •   Lack of Strong Application Controls over Access to and Protection of Financial Information, and
   •   Lack of Strong Logistical Security Controls to Secure DOL’s Networks and Information.

   The OIG recommended that management:

   •   Verify that specific security weaknesses identified during the audits are communicated to DOL agencies and
       included in each individual agency’s Plan of Actions & Milestones (POAM), and that appropriate and timely
       corrective action is taken on the identified weaknesses;
   •   Coordinate efforts among the DOL agencies to develop and/or enforce procedures and controls to address
       logical access and security control weaknesses on current financial management systems; and
   •   Coordinate efforts among the DOL agencies to develop and/or enforce procedures and controls to address
       systemic application access control weaknesses in current financial management systems

   During our FY 2007 audit, we noted that 51 prior year agency-specific recommendations addressing access
   controls have not been corrected (12 in the Office of the Chief Financial Officer (OCFO), 13 in the Employment
   and Training Administration (ETA), 12 in the Office of the Assistant Secretary for Administrative Management
   (OASAM), and 14 in the Employment Standards Administration (ESA)). In addition, in FY 2007, we identified
   weaknesses that resulted in 112 new recommendations related to access controls (23 in the OCFO, 52 in ETA, 20
   in OASAM, and 17 in ESA). The specific nature of these weaknesses, their causes, and the systems impacted by
   them has been communicated separately to management.

   New weaknesses detected during FY 2007 and the prior year control weaknesses represent a significant
   deficiency over access to key financial and support systems. These weaknesses include deficiencies in key
   financial information technology (IT) controls in the areas of security and system software controls that directly
   impact access to financial systems.

   In summary, we noted issues with account management, configuration management, and review of system audit
   logs in our FY 2007 testing of DOL’s IT systems, each of which present a reasonably possible chance to
   adversely affect DOL’s ability to initiate, authorize, record, process or report DOL financial data. Specifically,
   the following control weaknesses were present in multiple financial systems across various DOL agencies.

   •   Account Management
       - Account management controls were not consistently performed, such as incomplete or missing access
          request, modification, and termination forms;
       - Periodic user account reviews or re-certifications were not performed;
       - Inactive accounts were not disabled or deleted in a timely manner;
       - Generic accounts existed on systems;
       - Access authorization, recertification, and periodic reviews of data center access were not consistent with
          policies; and
       - Terminated personnel had active system accounts, and in some cases terminated employees accessed
          systems after their termination date.




                                                              FY 2007 Performance and Accountability Report       177
Financial Section




      •    Configuration Management
           - Technical security standards and policies need to be updated and implemented to include stronger logical
              access security controls. Specifically, patches were not applied to systems in a timely manner;
              unnecessary services were not disabled; and access to sensitive files, directories, or software was not
              restricted;
           - Production servers were not configured in accordance with baseline configurations or to the most
              appropriate settings;
           - Password settings do not comply with the Office of the Chief Information Officer (OCIO) Computer
              Security Handbook (CSH); and
           - Network permissions which allow users to access resources remotely that was not appropriately
              restricted.

      •    Review of System Audit Logs
           - Audit logs monitoring user and administrator activity, changes to security profiles, remote access logs,
              access to sensitive directories, and failed login attempts are not reviewed, or documentation of audit log
              reviews was not maintained;
           - Audit log review procedures were not documented;
           - Audit logs were not secured against editing by system administrators; and
           - Application level audit logs (e.g., significant transactions and changes to sensitive tables) were not
              proactively reviewed.

      These findings are a result of issues in the implementation and monitoring of Departmental processes and
      procedures. For example, management has not incorporated adequate testing of system controls as part of their
      Office of Management and Budget (OMB) Management and Control (OMB Circular No. A-123) program.
      These access control weaknesses could lead to users with inappropriate access to financial systems; inefficient
      processes; lack of completeness, accuracy, or integrity of financial data; and/or the lack of detection of unusual
      activity within financial systems. In addition, as a result of the identified weaknesses, the DOL OIG reported an
      access control significant deficiency in conjunction with its FY 2007 testing of compliance with the Federal
      Information Security Management Act (FISMA), which was passed as part of the Electronic Government Act of
      2002.

      Based on these facts noted as part of our FY 2007 audit, we revised the status of the recommendations related to
      this finding from resolved and open to unresolved. Additionally, we recommend that management complete
      the following actions to address the specific issues identified during our FY 2007 audit:

      1. Identify key financial IT controls and incorporate them into DOL’s internal control OMB Circular No. A-123
         testing process, to ensure that these controls are documented and operating effectively during the year.

      2. Coordinate efforts among the DOL agencies to develop and/or enforce procedures and controls to address
         access control weaknesses in current financial management systems.

      Management’s Response: Management is pursuing an aggressive remediation process that has resulted in
      substantial improvements to the Department’s overall IT control environment. Management continues to believe
      that controls inherent to specific applications, as well as manual and other compensating controls already in
      place, are sufficiently designed and effective to prevent or detect unauthorized access to DOL financial systems.
      Management concurs with and will implement the auditor’s 2007 recommendations to enhance the testing of key
      controls as part of DOL’s A-123 program. DOL’s Office of Chief Information Officer operates a monitoring
      program that is applied on a quarterly, semiannual and annual basis for every DOL major information system to
      determine security control implementation compliance. The monitoring program ensures that agencies document
      all identified weaknesses, regardless of the oversight sources in the agencies’ system-specific Plans of Actions
      and Milestones (PO&AM). DOL has enhanced its security control testing and evaluation (SCT&E) program


178       United States Department of Labor
                                                                                        Independent Auditors’ Report

                                                                                              Significant Deficiencies
                                                                                                              Exhibit I


   which will provide detailed reporting on and tracking of agency access control deficiencies and will closely
   address the access control and configuration management controls areas identified by the OIG in the FY 2007
   FISMA consolidated report.

   Auditor Response. Based on management’s response, the unresolved recommendations cited above are now
   resolved and open.


2. Weakness Noted over Payroll Accounting

   During FY 2006, the U.S. Department of Agriculture’s (USDA) Office of Chief Financial Officer
   (OCFO)/National Finance Center (NFC) processed DOL’s payroll. The Fiscal Year 2006 – Office of the Chief
   Financial Officer/National Finance Center General Control Review dated September 21, 2006, and issued by the
   USDA’s Office of Inspector General (Report No. 11401-24-FM) reported a qualified opinion regarding the
   effectiveness of NFC’s internal controls for the period October 1, 2005 through June 30, 2006. During FY 2006,
   DOL did not have policies and procedures in place to reconcile the payroll information it submitted to the NFC
   to that received and processed by the NFC.

   For each FY 2006 pay period, DOL submitted to the NFC payroll information that included all DOL employees
   for the period, along with their hours worked, leave used, and other payroll related information for the period.
   The NFC processed the payroll for DOL each period and made available for download a Detail Pay and Deduct
   Register report for each DOL Human Resources office. We noted that DOL did not utilize these reports to
   perform reviews or reconciliations of data processed by the NFC, and no other controls were in place during the
   year to ensure that what was submitted to NFC via Time and Attendance records were reconciled to what was
   shown as paid in the Detail Pay and Deduct Register.

   We recommended that management develop and implement policies and procedures to reconcile payroll
   information provided to the NFC to the payroll information processed by the NFC each pay period. These
   reconciliations should be documented, reviewed and approved by an appropriate supervisor, and maintained.

   During FY 2007, the NFC continued to process DOL’s payroll. The Fiscal Year 2007 – Office of the Chief
   Financial Officer/National Finance Center General Control Review dated September 27, 2007, and issued by the
   USDA’s Office of Inspector General (Report No. 11401-26-FM) reported a qualified opinion regarding the
   effectiveness of NFC’s internal controls for the period July 1, 2006 through June 30, 2007.

   As part of DOL’s corrective action plan for FY 2007, the OCFO’s PeoplePower Task Force created a Time and
   Attendance Reconciliation Report based on the NFC’s Detail Pay and Deduct Register to be used to reconcile
   information sent to NFC to that received and processed by NFC. In March 2007, the DOL OCFO issued policies
   and procedures that state that each DOL Human Resource office should review the Time and Attendance
   Reconciliation Reports each pay period and research and resolve differences identified. No offices that we tested
   complied with the new OCFO procedures, but two offices that we tested performed their own reconciliation
   procedures. The lack of reconciliation controls implemented department-wide around the NFC outputs,
   compounded by the control weaknesses identified at the NFC, increased the risk that payroll-related line items in
   the FY 2007 financial statements could be misstated because of errors in payroll processing by the NFC.

   Federal agencies that use external service providers, such as the NFC, should have controls in place to ensure the
   accuracy of processing outputs. As stated by the USDA OIG in its FY 2007 Report No. 11401-26-FM, “The
   accuracy and reliability of data processed by OCFO/NFC and the resultant reports rests with the customer agency
   and any compensating controls implemented by the agencies.”




                                                              FY 2007 Performance and Accountability Report       179
Financial Section




      OMB Circular No. 123, Management’s Responsibility for Internal Control, states, “Application control should be
      designed to ensure that transactions are properly authorized and processed accurately and that the data is valid
      and complete. Controls should be established at an application’s interfaces to verify inputs and outputs, such as
      edit checks.” Additionally, per the Government Accountability Office’s (GAO) Standards for Internal Control
      in the Federal Government, “Internal control should generally be designed to assure that ongoing monitoring
      occurs in the course of normal operations. It is performed continually and is ingrained in the agency’s
      operations. It includes regular management and supervisory activities, comparisons, reconciliations, and other
      actions people take in performing their duties.”

      Although the OCFO issued the policies and procedures discussed above, DOL did not implement these policies
      and procedures, and the OCFO did not monitor to ensure that the reconciliations were completed, documented,
      reviewed and approved by an appropriate supervisor, and maintained. As such, we consider the recommendation
      we made in FY 2006 as resolved and open. To close this recommendation in the future, the DOL OCFO should
      ensure (a) that Human Resource offices are reconciling payroll information provided to the NFC to the payroll
      information processed by the NFC each pay period in compliance with DOL’s current policies and procedures,
      and (b) that these reconciliations are documented, reviewed and approved by an appropriate supervisor, and
      maintained.

      Management’s Response: Management accepts that more uniform reconciliation procedures and monitoring
      would improve internal controls for payroll expenses. As such, OCFO issued a policy memorandum on October
      23, 2007, to agencies requiring monthly reconciliation of NFC payroll expenses to DOL payroll personnel data
      and maintenance of documentation of the work performed. OCFO will perform a monthly reconciliation audit
      on a sample basis. These audits will begin in FY 2008 and documentation of each audit will be maintained.


3. Weakness Noted over Budgetary Accounting

      During FY 2006, we reported that the OCFO did not complete timely reconciliations related to the
      Apportionment and Reapportionment Schedules (SF-132) and the Report on Budget Execution and Budgetary
      Resources (SF-133). We recommended that management ensure that current policies and procedures over SF-
      132 and SF-133 reconciliations are enhanced to require (a) quarterly reconciliations be prepared and
      documented, (b) the completion of documented supervisory reviews over the reconciliations, and (c) the
      completion of these procedures by a certain date (e.g., 15 days after each quarter-end).

      During our FY 2007 audit work, we requested quarterly reconciliations of the SF-132 to the SF-133. However,
      the first quarter reconciliation was not completed, and the second quarter reconciliation was not provided to us
      until June 2007. In addition, these reconciliations identified several necessary corrections to amounts posted in
      the general ledger, and various differences remained unresolved. We also requested the reconciliation of the FY
      2006 Statement of Budgetary Resources (SBR) to the FY 2006 President’s Budget of the United States; however,
      we noted the reconciliation was not reviewed timely. FY 2006 and 2007, the OCFO did not have adequate
      resources and did not adequately enforce policies to ensure the reconciliations were completed and any identified
      reconciling items resolved in a timely manner. The lack of timely and complete reconciliations increases the risk
      that material differences in external reports and in the general ledger may not be detected and corrected in a
      timely manner during the year or for year-end reporting.

      Additionally in FY 2006, we reported that 6 of the 10 requested budgetary to proprietary account relationship
      tests were not completed as of March 31, 2006, and explanations were not provided for variances identified in the
      four analyses that were completed. We recommended that management develop and implement policies and
      procedures that require (a) the preparation and documentation of quarterly budgetary to proprietary relationship
      analyses, (b) the completion of documented supervisory reviews over the analyses, and (c) the completion of
      these analyses by a certain date (e.g., 15 days after each quarter-end).


180     United States Department of Labor
                                                                                          Independent Auditors’ Report

                                                                                                Significant Deficiencies
                                                                                                                Exhibit I




    During our FY 2007 procedures over budgetary to proprietary account relationship analyses, we noted that the
    OCFO is in the process of automating this analysis and is developing a review policy over the automated
    analysis. However, the automated analysis and review policy had not been completed and performed during the
    fiscal year. The lack of timely and complete budgetary to proprietary analyses increases the risk that material
    differences in external reports and in the general ledger may not be detected and corrected in a timely manner
    during the year or for year-end reporting.

    Furthermore, we identified certain errors during our FY 2007 Treasury warrant budgetary testwork that could
    have been detected by the analysis and reconciliation controls discussed above. Specifically, three budgetary and
    proprietary entries were not posted concurrently; requiring a net $22 million adjustment to increase budget
    authority, and one budgetary entry was miscoded to the incorrect budgetary account, requiring a $693 million
    reclassification entry. In FY 2007, we also identified the improper use of certain U.S. Standard General Ledger
    (USSGL) accounts related to obligation adjustments in certain situations.

    Per GAO’s Standards of Internal Control in the Federal Government, “Internal control should generally be
    designed to assure that ongoing monitoring occurs in the course of normal operations. It is performed
    continually and is ingrained in the agency’s operations. It includes regular management and supervisory
    activities, comparisons, reconciliations, and other actions people take in performing their duties.” In addition, it
    states, “Control activities occur at all levels and functions of the entity. They include a wide range of diverse
    activities such as approvals, authorizations, verifications, reconciliations, performance reviews, maintenance of
    security, and the creation and maintenance of related records which provide evidence of execution of these
    activities as well as appropriate documentation.”

    According to OMB’s Circular No. A-136 (June 2007), section II.4.6.11, “…Information on the SBR should be
    reconcilable to the budget execution information reported on the SF 133 Report on Budget Execution and
    Budgetary Resources and with information reported in the Budget of the United States Government to ensure the
    integrity of the numbers presented. The SBR is an agency-wide report, which aggregates account-level
    information reported in the SF 133. Consistency between information presented in the financial statements and
    the Budget of the United States Government is critical to ensure the integrity of the numbers presented. The
    FACTS II helps to ensure the consistency of data. The FACTS II data submitted by agencies are USSGL-based
    trial balances, which are used to populate the SF 133 and the actual column of the Program and Financing
    Schedule of the Budget. The USSGL-based trial balance is also used to prepare the SBR.”

    Since the OCFO did not complete the budgetary and proprietary analysis during FY 2007 and did not complete
    the SF-132 to SF-133 reconciliations accurately and timely, the recommendations we made in FY 2006 remain
    resolved and open.

    We also recommend that management develop clearly defined transaction codes within DOLAR$ to ensure that
    adjustments to obligations are recorded in the proper USSGL account depending on the situation and strengthen
    manual controls related to the processing of obligation adjustments. This recommendation is resolved and open.

    Management’s Response: Management is confident that the design and effectiveness of its four layers of
    operating controls used for end-of-year financial reporting would detect improper balances in the relationships
    between budgetary and proprietary accounts. These controls ensure the reliability of data for end-of-year
    financial reporting.




1Also cited in the July 2006 version of OMB Circular No. A-136, section II.4.6.1.

                                                                FY 2007 Performance and Accountability Report       181
Financial Section




      With the addition of some final policy documentation in FY 2008 and further strengthening of OCFO monitoring
      and oversight, management expects to improve the timeliness and effectiveness of the controls over budgetary
      accounting so that all elements of this finding will be resolved in FY 2008.

      Regarding the $693 million budgetary entry miscoding error, OCFO provided documentation demonstrating that
      the end-of-year reconciliations would have detected the misclassified budgetary entry had the auditor not
      detected it during the course of the audit. This reconciliation, along with other key analytics, confirmed the
      accuracy of budgetary and proprietary accounting as part of the annual financial statement preparation process.
      Beginning in December 2007, management will perform these analytical procedures monthly to further
      strengthen DOL’s financial processes.

      Management is developing new, and strengthening existing, manual and system controls relating to obligation
      adjustments.


4. Lack of Segregation of Duties over Journal Entries

      During the FY 2006 audit, we noted that accounting staff from all DOL agencies were able to prepare and enter
      journal entries into the Department of Labor Accounting Related Systems (DOLAR$) without approval. By
      allowing individuals the authority to prepare and approve their own transactions in DOLAR$, there is an
      increased risk that a material error would not be prevented or detected and corrected in a timely manner.

      We recommended that management reconfigure DOLAR$ so that journal entries entered into the DOLAR$
      general ledger system and its successor system are required to be approved electronically by an individual other
      than the preparer before posting. We also recommended that agencies implement manual compensating review
      controls until system controls have been implemented.

      During the FY 2007 audit, we found that management had not made the recommended changes to DOLAR$.
      During the second quarter of FY 2007, the OCFO had developed Department-wide manual policies and
      procedures designed to ensure the segregation of journal entry preparation and approval authority. However, our
      test of 21 sample journal entries from October 1, 2006 through June 30, 2007, noted that 16 of the journal entries
      did not have supporting documentation evidencing management review and approval.

      Since the Department did not make, or plan, changes to DOLAR$ to segregate journal entry preparation and
      approval authority in DOLAR$, and has changed its plans to implement a new general ledger system, we
      consider the system related recommendation we made in FY 2006 unresolved. To resolve the recommendation,
      management needs to provide a corrective action plan with timeframes to implement a new general ledger system
      that requires electronic approval by someone other than the preparer before journal entries are posted.

      Because management implemented new policies and procedures for part of FY 2007, we consider the manual
      control recommendation made in FY 2006 as resolved and open. To close this recommendation, management
      should formalize the Department-wide policies and procedures for documenting the preparation and review of
      journal entries; and enforce these policies and procedures. Management should ensure that all journal entries are
      properly supported and documented. Documentation should authenticate the posting of the entry and the users
      who recorded and authorized the transaction in DOLAR$.

      Management’s Response: In the second quarter of FY 2007, management developed and implemented a new
      policy that has produced positive results in improving management controls associated with DOLAR$ journal
      vouchers (JV). This new policy requires documentation be maintained with the JV entries to support transactions
      and requires that proper authorizations and approvals be shown on the documents. While the auditor noted that
      weak segregation of duties in the JV process increases the risk of potential misstatement, OCFO employs other


182     United States Department of Labor
                                                                                   Independent Auditors’ Report

                                                                                        Significant Deficiencies
                                                                                                        Exhibit I


compensating controls to mitigate this risk and these compensating controls provide reasonable assurance over
the accuracy and reliability of JV entries. OCFO will further refine the existing JV policy to strengthen
segregation of duties by January 2008.

Having addressed the segregation of duties with manual controls in the JV process, OCFO does not intend to
automate this control in the current operating environment as the DOLAR$ accounting system is at the end of its
planned life-cycle, where extensive system changes are no longer cost effective. Management will ensure that
the new system that replaces DOLAR$, planned for implementation by October 2009, dependent on the
availability of funding, contains electronic controls over the JV process.

Auditor Response. Based on management’s response, the unresolved recommendation to implement an
electronic approval by someone other than the preparer in the new general ledger system is now resolved and
open.




                                                          FY 2007 Performance and Accountability Report     183
                                                                                        Independent Auditors’ Report

                                                                                                 Compliance Matters
                                                                                                           Exhibit II




1. Anti-deficiency Act

      During FY 2007, DOL management concluded that two Anti-deficiency Act violations had occurred. The first
      violation totaled $130,569,041 and the second violation totaled $29,103. The DOL Secretary has reported the
      violations to the President of the United States, the President of the Senate, the Speaker of the House of
      Representatives, and the Comptroller General of the United States, as required by 31 U.S.C. section 1351.

      The first violation occurred in the Employment and Training Administration (ETA) Training and Employment
      Services (TES) account (160174) for Program Year 2005. This violation involved the obligation of budgetary
      resources in excess of a fiscal year 2006 apportionment, but did not involve obligations in excess of an
      appropriation. The second violation occurred in the Employment Standards Administration (ESA) Salaries and
      Expense account (160150) for fiscal years 2005, 2006, and 2007. The violation represents the compensation paid
      from March 20, 2005 through November 3, 2006 to an ESA employee who was a citizen of Mexico. This action
      violated a general provision in the fiscal year 2005 and fiscal year 2006 appropriations.

      No recommendation is considered necessary since management has completed required reporting related to these
      violations.




184     United States Department of Labor
